HHS/OIG, Audit -"Audit of Medical and Ancillary Medicaid Claims for 21 to 64 Year Old Residents of State Psychiatric Hospitals That Are Institutions for Mental Diseases in Florida,"(A-04-01-02008)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Medical and Ancillary Medicaid Claims for 21 to 64 Year Old Residents of State Psychiatric Hospitals That
Are Institutions for Mental Diseases in Florida, Adoption and Foster Care, Administration for Children and Families (ACF)," (A-04-01-02008)
July 18, 2002
Complete
Text of Report is available in PDF format (507 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if the State
of Florida had adequate controls to preclude claiming Federal financial participation (FFP) under the Medicaid program
when 21 to 64 year old residents of State operated institutions for mental diseases (IMD) received physician services,
laboratory and clinic services, or hospital outpatient treatment.  Our audit showed that the State of Florida appeared
to have some controls in place at the IMDs to prevent improper FFP claims for medical and ancillary services provided
to IMD residents.    We reviewed 262,796 claims totaling about $16 million in Medicaid payments, and found
5,745 claims that were not eligible for Federal reimbursement, yet FFP was claimed.  These claims represented $71,406
in FFP.  We recommended the State reimburse the Federal Government for the FFP share of the unallowable claims.